No. 19-401
IN THE

~upreme ~ourt of tbe Wintteb ~tates
LAMONT DEJUAN HIGGS

Petitioner,
V.
WARDEN WILSON,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 23rd day of December, 2019, I caused three copies of the Reply in Support
of Petition for a Writ of Certiorari to be served by third-party commercial carrier on the
counsel identified below, and caused an electronic version to be transmitted to the
counsel identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties
required to be served have been served.
Noel J. Francisco
SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Ave, NW
Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for Respondent

